                               Fiscal Year 2005
                     Statutory Review of Restrictions on
                       Directly Contacting Taxpayers

                                  February 2005

                       Reference Number: 2005-40-040




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                         February 22, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Fiscal Year 2005 Statutory Review of
                             Restrictions on Directly Contacting Taxpayers
                             (Audit # 200540027)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      compliance with restrictions on direct contact with taxpayers. The overall objective of
      this review was to determine whether the IRS complied with legal guidelines dealing
      with directly contacting taxpayers and their representatives as set forth in Internal
      Revenue Code Sections (I.R.C. §§) 7521(b)(2) and (c) (2000).
      In summary, we could not determine whether the IRS fully complied with
      I.R.C. §§ 7521(b)(2) and (c) requirements when directly contacting taxpayers and their
      representatives. This is the seventh year in which we have reported our inability to give
      an opinion on the IRS’ compliance with the restrictions of I.R.C. §§ 7521(b)(2) and (c).
      The Treasury Inspector General for Tax Administration is required under
      I.R.C. § 7803(d)(1)(A)(ii) (2000) to annually evaluate the IRS’ compliance with the direct
      contact provisions of the law. IRS management information systems do not separately
      record or monitor direct contact requirements, and the Congress has not explicitly
      required the IRS to do so. Furthermore, we do not recommend the creation of a
      separate tracking system. Accordingly, we made no recommendations in this report.
      Management’s Response: The IRS concurred with our decision to not recommend the
      creation of a separate tracking system and indicated its appreciation of our support of
      legislation that would alleviate the requirement to perform this review. Management’s
      complete response to the draft report is included as Appendix IV.
                                           2

Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                                 Fiscal Year 2005 Statutory Review of
                             Restrictions on Directly Contacting Taxpayers




                                              Table of Contents


Background ................................................................................................. Page 1
Compliance With Statutory Requirements for Restrictions on
Directly Contacting Taxpayers Cannot Be Determined ............................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology......................... Page 3
Appendix II – Major Contributors to This Report ......................................... Page 4
Appendix III – Report Distribution List ......................................................... Page 5
Appendix IV – Management’s Response to the Draft Report ...................... Page 6
                 Fiscal Year 2005 Statutory Review of
             Restrictions on Directly Contacting Taxpayers

                         The Omnibus Taxpayer Bill of Rights1 created a number of
Background
                         safeguards to protect taxpayers being interviewed by an
                         Internal Revenue Service (IRS) employee as part of an
                         examination or collection action. Specifically, IRS
                         employees are required to:
                             •   Stop a taxpayer interview (unless the interview is
                                 required by court order) whenever a taxpayer
                                 requests to consult with a representative (someone
                                 who is permitted to represent taxpayers before the
                                 IRS).
                             •   Obtain their immediate supervisor’s approval to
                                 contact the taxpayer instead of the representative if
                                 the representative is responsible for unreasonably
                                 delaying the completion of an examination or
                                 collection action.
                         The provisions were created to protect the rights of
                         taxpayers who are interviewed by an IRS employee as part
                         of an examination or collection action. A taxpayer can file a
                         civil suit against the IRS if an IRS employee intentionally
                         disregards these provisions by denying a taxpayer the right
                         to appropriate representation.
                         The Treasury Inspector General for Tax Administration
                         (TIGTA) is required under Internal Revenue Code Section
                         (I.R.C. §) 7803(d)(1)(A)(ii) (2000) to annually evaluate the
                         IRS’ compliance with the direct contact provisions of
                         I.R.C. §§ 7521(b)(2) and (c) (2000).
                         This review was performed at the IRS National
                         Headquarters in Washington, D.C., in the Small
                         Business/Self-Employed Division, Wage and Investment
                         Division, and Office of the National Taxpayer Advocate
                         during the period October 2004 through January 2005. The
                         audit was conducted in accordance with Government
                         Auditing Standards. Detailed information on our audit
                         objective, scope, and methodology is presented in
                         Appendix I. Major contributors to the report are listed in
                         Appendix II.



                         1
                          Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in
                         scattered sections of 5 U.S.C. and 26 U.S.C.).
                                                                                       Page 1
                          Fiscal Year 2005 Statutory Review of
                      Restrictions on Directly Contacting Taxpayers

                                  We could not determine whether IRS employees followed
Compliance With Statutory
                                  proper procedures to stop an interview if the taxpayer
Requirements for Restrictions
                                  requested to consult with a representative. Neither the IRS
on Directly Contacting
                                  nor we could readily identify cases in which the taxpayer
Taxpayers Cannot Be
                                  requested a representative or the IRS contacted the taxpayer
Determined
                                  directly and bypassed the representative.
                                  Current IRS management information systems do not
                                  separately record or monitor cases in which taxpayers had
                                  requested to consult with a representative or in which IRS
                                  employees bypassed taxpayer representatives and contacted
                                  the taxpayers directly. In addition, there is no legal
                                  requirement for the IRS to develop a separate system that
                                  records or monitors cases involving these two procedures.
                                  Taxpayer complaints that allege IRS employees bypassed
                                  their representatives and contacted them directly are tracked
                                  by the TIGTA Office of Investigations (OI). The TIGTA OI
                                  closed six direct contact complaint and investigation cases
                                  between November 2003 and October 2004. Our review of
                                  these cases showed that, in all six cases, the IRS employees
                                  did not violate the direct contact provisions of the I.R.C.
                                  As a result, we do not recommend the creation of a separate
                                  tracking system and are making no recommendations in this
                                  report. This is the seventh year in which we have reported
                                  our inability to give an opinion on the IRS’ compliance with
                                  the I.R.C. restrictions on direct contact.
                                  Management’s Response: The IRS concurred with our
                                  decision to not recommend the creation of a separate
                                  tracking system and indicated its appreciation of our support
                                  of legislation that would alleviate the requirement to
                                  perform this review.




                                                                                        Page 2
                               Fiscal Year 2005 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers

                                                                                                Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) complied with legal guidelines dealing with directly contacting taxpayers and their
representatives as set forth in Internal Revenue Code Sections 7521(b)(2) and (c) (2000). To
accomplish this objective, we:

I.      Obtained confirmation from the Small Business/Self-Employed and Wage and
        Investment Divisions that the IRS neither has, nor plans to implement, a system or
        process to identify or track cases in which taxpayers have requested to consult with a
        representative or in which an IRS employee bypassed a representative.
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        (TIGTA) personnel responsible for the Taxpayer Advocate Management Information
        System (TAMIS),1 the Executive Control Management System (ECMS),2 and the
        Performance and Results Information System (PARIS)3 to determine if there is a system
        or a plan for a system to track taxpayer complaints relating to violations of the direct
        contact provisions of the law.
        A. Identified six direct contact cases (four complaints and two investigations) closed by
           the TIGTA Office of Investigations (OI) during the period November 25, 2003,
           through October 13, 2004.
        B. Obtained and reviewed the closed TIGTA OI complaint and investigation files to
           determine their validity and what actions were taken by the IRS as a result of the
           complaints and investigations.




1
  The TAMIS is an electronic database and case inventory control system used by Taxpayer Advocate Service
employees.
2
  The ECMS is an application used by the IRS to assign, control, and track information and correspondence.
3
  The PARIS is a management information system that provides the TIGTA with the ability to manage and account
for the thousands of complaints received and investigations initiated annually.
                                                                                                      Page 3
                           Fiscal Year 2005 Statutory Review of
                       Restrictions on Directly Contacting Taxpayers

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Sharon Summers, Lead Auditor
Cindy Harris, Auditor




                                                                                         Page 4
                          Fiscal Year 2005 Statutory Review of
                      Restrictions on Directly Contacting Taxpayers

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Government Liaison, and Disclosure Small Business/Self-Employed
Division SE:S:CGL&D
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 5
     Fiscal Year 2005 Statutory Review of
 Restrictions on Directly Contacting Taxpayers

                                                 Appendix IV


Management’s Response to the Draft Report




                                                      Page 6
